                                  SOCIAL SECURITY
MEMORANDUM

Date:   September 20, 2004                                                      Refer To:

To:     The Commissioner

From:   Acting Inspector General

Subject: Performance Indicator Audit: Employment for Disabled Beneficiaries
        (A-02-04-14068)


        We contracted with PricewaterhouseCoopers, LLP (PwC) to evaluate 16 of the
        Social Security Administration’s performance indicators established to comply
        with the Government Performance and Results Act. The attached final report
        presents the results of one of the performance indicators PwC reviewed. For the
        performance indicator included in this audit, PwC’s objectives were to:
           •   Test critical controls over the data generation and calculation processes
               for the specific performance indicator,
           •   Assess the overall adequacy, accuracy, reasonableness, completeness,
               and consistency of the performance indicator and supporting data, and
           •   Determine if each performance indicator provides meaningful
               measurement of the program and the achievement of its stated objectives.

        This report contains the results of the audit for the following indicator:

           •   Percent increase in the number of Supplemental Security Income disabled
               beneficiaries earning at least $100 per month.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have
        your staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.




                                                   S
                                                   Patrick P. O’Carroll, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


  PERFORMANCE INDICATOR AUDIT:
        EMPLOYMENT FOR
     DISABLED BENEFICIARIES

   September 2004   A-02-04-14068




 AUDIT REPORT
                                  Mission

We improve SSA programs and operations and protect them against fraud,
waste, and abuse by conducting independent and objective audits,
evaluations, and investigations. We provide timely, useful, and reliable
information and advice to Administration officials, the Congress, and the
public.

                                 Authority

The Inspector General Act created independent audit and investigative
units, called the Office of Inspector General (OIG). The mission of the OIG,
as spelled out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and
    proposed legislation and regulations relating to agency programs
    and operations.
   Keep the agency head and the Congress fully and currently informed
    of problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the
    reviews.

                                   Vision

By conducting independent and objective audits, investigations, and
evaluations, we are agents of positive change striving for continuous
improvement in the Social Security Administration's programs, operations,
and management and in our own office.
MEMORANDUM

Date:     September 9, 2004

To:       Acting Inspector General

From:     PricewaterhouseCoopers LLP

Subject: Performance Indicator Audit: Employment for Disabled Beneficiaries
          (A-02-04-14068)

The Government Performance and Results Act (GPRA)1 of 1993 requires the Social
Security Administration (SSA) to develop performance indicators that assess the
relevant service levels and outcomes of each program activity.2 GPRA also calls for a
description of the means employed to verify and validate the measured values used to
report on program performance.3

OBJECTIVE
For each performance indicator included in this audit, our objectives were to:

          1. Test critical controls over the data generation and calculation processes for
             the specific performance indicator.
          2. Assess the overall adequacy, accuracy, reasonableness, completeness, and
             consistency of the performance indicator and supporting data.
          3. Determine if each performance indicator provides meaningful measurement
             of the program and the achievement of its stated objectives.




1
    Public Law (P. L.) No. 103-62, 107 Stat. 285.
2
    31 United States Code (U.S.C.) 1115(a)(4).
3
    31 U.S.C. 1115(a)(6).


Performance Indicator Audit: Employment for Disabled Beneficiaries (A-02-04-14068)      1
We audited the following performance indicator as stated in the SSA Fiscal Year (FY)
2003 Performance and Accountability Report (PAR):


    Performance Indicator                    FY 2003 Goal                     FY 2003 Reported
                                                                                   Results
    Percent increase in the
    number of Supplemental
                                                                                     N/A 232,654
    Security Income (SSI)
                                             8% (269,109)                            through
    disabled beneficiaries
                                                                                     July 2003.4
    earning at least $100 per
    month.

BACKGROUND
SSA has several work incentive programs that assist SSI disabled beneficiaries to
return to work. These work incentive programs include the following:

      •   Ticket to Work Program (TTW) – The program is designed to assist disabled
          beneficiaries to obtain employment. Enrollees may use the ticket to obtain the
          vocational rehabilitation services, employment services and other support
          services needed to return to work, or go to work for the first time. As long as a
          beneficiary is using a ticket (as determined under SSA criteria), SSA will not
          initiate a Continuing Disability Review.
      •   Plan to Achieve Self-Support (PASS) – The program allows SSI beneficiaries to
          set employment goals and set aside money for these goals so that these funds
          will not affect their SSI eligibility or payment amount.
      •   1619A and 1619B Programs – These programs allow SSI beneficiaries to return
          to work over time without losing SSI and Medicaid eligibility.
      •   Impairment-Related Work Expense (IRWE) – The program allows SSI
          beneficiaries to obtain items, such as a cane or wheelchair, without the income
          used for such items affecting their SSI eligibility or benefit amount.
      •   Blind Work Expense (BWE) – The Blind Work Expenses program does not count
          any earned income that a SSI beneficiary uses to meet expenses that are
          required for the beneficiary to work. Candidates must be receiving SSI payments
          due to blindness. BWE items do not have to be related to their blindness.

The SSI Program, authorized by Title XVI of the Social Security Act, was designed as a
needs-based program to provide or supplement the income of aged, blind, and/or
disabled individuals with limited income and resources. SSI beneficiaries are required
to report their earnings to SSA. Title XVI of the Act provides for the reduction or

4
 Social Security Administration Performance and Accountability Report Fiscal Year 2003,
pages 68 and 75.


Performance Indicator Audit: Employment for Disabled Beneficiaries (A-02-04-14068)                 2
stoppage of SSI benefits based on the earnings of the beneficiaries. The main methods
to report earnings include the following:

    •    SSI beneficiaries report their earnings to SSA field offices, SSA’s 1-800 number,
         or by sending a letter to SSA. After receipt of the beneficiaries’ earnings
         evidence (such as pay stubs for wages or a tax return for self-employment), SSA
         inputs earnings information into the Supplemental Security Record (SSR) via the
         Modernized Supplemental Security Income Claims System (MSSICS).
    •    If SSI beneficiaries do not report their earnings to SSA, SSA will use information
         contained within the Master Earnings File (MEF) to determine if there were new
         earnings reported against the beneficiary’s record. Most of the information
         included in the MEF is provided by the Internal Revenue Service (IRS). The
         MEF interfaces with the SSR and will create alerts/diaries that indicate that the
         SSI beneficiaries’ earnings may have changed. This interface between the MEF
         and SSR occurs several times per year.
    •    SSA also receives quarterly State wage data from the Office of Child Support
         Enforcement, and alerts are generated when earned income data on the SSR
         does not match, within a tolerance.

On a quarterly basis, the Office of Research, Evaluation, and Statistics (ORES) receives
the Work Incentive File from the Office of Disability and Supplemental Security Income
Systems (ODISSIS). This file contains terminated and active data records that include
beneficiaries’ Social Security Numbers (SSN) and earnings information. The type of
earnings for each beneficiary is recorded in the file as one of the following categories:
S (self-employment), W (wages), C (blind work expense), D (income excluded under
approved plan), T (impairment related work expenses), N (net loss), and B (student
earned income exclusion). These data elements are extracted from the Work Incentive
File and formatted into an Excel file using Statistical Analysis Software (SAS). On a
quarterly basis, this Excel spreadsheet is sent to the performance indicator owner in the
Office of Disability Income Security Programs (ODISP), Office of Employment Support
Programs (OESP). The performance indicator owner manually calculates the results of
the SSI beneficiaries earning at least $100 per month from the Excel spreadsheet.

The indicator was calculated as follows:
Current year number of SSI disabled                            Sum of the SSI disabled beneficiaries
beneficiaries earning at least $100 for                 =      earning at least $100 for the last date
the last date of the particular quarter                        of the particular quarter.




Performance Indicator Audit: Employment for Disabled Beneficiaries (A-02-04-14068)                       3
                                                               Current year number of SSI disabled
                                                               beneficiaries earning at least $100 for
                                                               a particular quarter minus previous
    Percent increase (decrease) in SSI                         year number of SSI disabled
    beneficiaries earning at least $100                 =      beneficiaries earning at least $100 for
                 per month                                     the last date of the particular quarter.
                                                               Previous year number of SSI disabled
                                                               beneficiaries earning at least $100 for
                                                               the last date of the particular quarter.

This performance indicator represents the percent increase in the number of SSI
disabled beneficiaries earning at least $100 per month for the last date of that particular
quarter.

On a quarterly basis, the performance indicator is sent to the Office of Strategic
Management (OSM) to be incorporated as part of the centralized performance indicator
tracking report.

RESULTS OF REVIEW

Percent increase in the number of Supplemental Security Income disabled
beneficiaries earning at least $100 per month.

          FY 2003 Goal: 8 Percent (269,109)
          Actual FY 2003 Performance: Not Available.5 SSA did not have the data to
          determine if it met its goal.

Findings

While we found this performance indicator to be reasonable and meaningful, SSA can
strengthen the security over the measurement process and take steps to better report
performance in this area. We believe that SSA should strengthen the logical access
privileges given to employees to help ensure that the data supporting this performance
indicator is not inadvertently deleted or changed without appropriate approval. Due to
the volatility of the SSI program, we believe that SSA should consider averaging this
information over a relevant period, rather than reporting it at a single point in time.
Finally, we believe that the Data Definition associated with this performance indicator
should be clarified to reflect all of the various programs and activities utilized by SSA to
positively impact the earnings potential of SSI Disabled Beneficiaries.

We tested the "Work Incentive File" mainframe data used to calculate the indicator and
found that a total of nine SSA employees and contractors had the "All" access
designation within the Top Secret security software to these datasets. The "All" level of
access allows users to create, delete and update any of the data (or datasets)
5
    Ibid, page 73.


Performance Indicator Audit: Employment for Disabled Beneficiaries (A-02-04-14068)                        4
contained within the datasets we reviewed without appropriate review or approval of the
changes. The "All" level of access prevents SSA from ensuring the integrity of this
production data. Additionally, by allowing employees and contractors to have the "All"
access designation, SSA is not conforming to the principles of "least privileged access"
or segregation of duties.

SSA measures this indicator on a periodic basis throughout the year. However, the
indicator reported in the PAR represents SSI beneficiaries recorded on the SSR as
earning over $100 for the month of June. Such single point in time measurements are
susceptible to seasonal fluctuations or other anomalous changes in the underlying data,
which have the potential to impact their reliability as indicators of sustained progress
against objectives. Because SSA has interim data available regarding this indicator, we
believe that averaging this information over a relevant period, rather than reporting it at
a single point in time, would help ensure that reliability is not adversely impacted by
seasonal or other anomalous changes in the underlying data. For example, the
performance indicator could be calculated using the average result of the 4 quarters for
the current year and comparing it to the average result of the 4 quarters for the prior
year.

We found that the results in the FY 2003 PAR did not discuss all of the SSA programs
used to assist SSI disabled beneficiaries to return to work such as the PASS, 1619A
and 1619B, IRWE and BWE programs. In addition, the PAR does not discuss any other
means of increasing SSI beneficiaries’ earnings.

SSA had not documented policies and procedures related to the process to collect,
review and provide the performance indicator data to OSM.

The FY 2003 PAR did not report the correct month for the results of the performance
indicator. The FY 2003 PAR reported the time period as through July 2003, although
the data was only produced through June 2003.

RECOMMENDATIONS
We recommend SSA:

    1. Ensure that SSA personnel do not have the ability, through inappropriate access,
       to directly modify, create or delete the datasets used to calculate the results of
       this indicator.
    2. Consider revising the calculation of the performance indicator by averaging the
       interim data available for the indicator over a relevant period, rather than
       reporting it at a single point in time.
    3. Disclose and discuss all of the SSA programs that assist the SSI disabled
       beneficiaries to increase their monthly earnings.
    4. Document the policies and procedures used to prepare and disclose the results
       of the performance indicator.



Performance Indicator Audit: Employment for Disabled Beneficiaries (A-02-04-14068)       5
    5. Ensure that the performance indicator results are properly reported in conformity
       with the data definition.

AGENCY COMMENTS

The Agency agreed with our recommendations. The full text of the Agency’s comments
is in Appendix D.




                                                               S
                                                               Patrick P. O’Carroll, Jr.




Performance Indicator Audit: Employment for Disabled Beneficiaries (A-02-04-14068)         6
                                                Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Process Flowcharts

APPENDIX D – Agency Comments




Performance Indicator Audit: Employment for Disabled Beneficiaries (A-02-04-14068)
                                                                                     Appendix A

Acronyms
 BWE                    Blind Work Expenses
 ERMS                   Earnings Record Maintenance System
 FY                     Fiscal Year
 GAO                    Government Accountability Office
 GPRA                   Government Performance and Results Act
 IRS                    Internal Revenue Service
 IRWE                   Impairment Related Work Expense
 MEF                    Master Earnings File
 MSSICS                 Modernized Supplemental Security Income Claims Systems
 ODISP                  Office of Disability Income Security Programs
 ODISSIS                Office of Disability and Supplemental Security Income Systems
 OESP                   Office of Employment Support Programs
 ORES                   Office of Research, Evaluation, and Statistics
 OSM                    Office of Strategic Management
 PAR                    Performance and Accountability Report
 PASS                   Plan for Achieving Self-Support
 SAS                    Statistical Analysis Software
 SGA                    Substantial Gainful Activity
 SSA                    Social Security Administration
 SSI                    Supplemental Security Income
 SSIRMS                 Supplemental Security Income Records Maintenance System
 SSN                    Social Security Number
 SSR                    Supplemental Security Record
 TTW                    Ticket to Work Program




Performance Indicator Audit: Employment for Disabled Beneficiaries (A-02-04-14068)
                                                                                     Appendix B

Scope and Methodology
We updated our current understanding of the Social Security Administration’s (SSA’s)
Government Performance and Results Act (GPRA) processes. This was completed
through research and inquiry of SSA management. We also requested SSA to provide
various documents regarding the specific programs being measured as well as the
specific measurement used to assess the effectiveness and efficiency of the related
program.

Through inquiry, observation, and other substantive testing including testing of source
documentation, we performed the following as applicable:

    •    Reviewed prior SSA, Government Accountability Office, and other reports related
         to SSA GPRA performance and related information systems.
    •    Met with the appropriate SSA personnel to confirm our understanding of each
         individual performance indicator.
    •    Flowcharted the processes (see Appendix C).
    •    Where applicable, we tested key controls related to manual or basic
         computerized processes (e.g., spreadsheets, databases, etc.).
    •    Conducted and evaluated tests of the automated and manual controls within and
         surrounding each of the critical applications to determine whether the tested
         controls were adequate to provide and maintain reliable data to be used when
         measuring the specific indicator.
    •    For those indicators with results that SSA determined using computerized data,
         we assessed the completeness and accuracy of that data to determine the data's
         reliability as it pertains to the objectives of the audit.
    •    Identified and extracted data elements from relevant systems and obtained
         source documents for detailed testing selections and analysis.
    •    Identified attributes, rules, and assumptions for each defined data element or
         source document.
    •    Tested the adequacy, accuracy, reasonableness, consistency, and completeness
         of the selection.
    •    Recalculated the metric or algorithm of key performance indicators to ensure
         mathematical accuracy.

As part of this audit, we documented our understanding, as conveyed to us by Agency
personnel, of the alignment of the Agency’s mission, goals, objectives, processes, and
related performance indicators. We analyzed how these processes interacted with
related processes within SSA and the existing measurement systems. Our
understanding of the Agency’s mission, goals, objectives, and processes were used to
determine if the performance indicators being used appear to be valid and appropriate



Performance Indicator Audit: Employment for Disabled Beneficiaries (A-02-04-14068)           B-1
given our understanding of SSA’s mission, goals, objectives and processes. We
followed all performance audit standards. In addition to the steps above, we specifically
performed the following to test the indicator included in this report:

    •    Audited the design and effectiveness of the SSA internal controls and the
         accuracy and completeness of the data related to the following areas:

             o Ensured that monthly earnings information provided by the claimant were
               accurately posted to the Supplemental Security Record by reviewing 120
               redetermination cases and observing 9 redeterminations in the field.
               Redeterminations are a review of the beneficiaries’ non-medical eligibility
               factors (i.e., income, resources and living arrangements) to ensure that
               they are still eligible for and are receiving the correct Supplemental
               Security Income (SSI) payment. Documents, such as pay stubs, are
               reviewed and used to determine the beneficiaries’ eligibility when
               applicable.
             o Completed application control reviews over Modernized Supplemental
               Security Income Claims Systems (MSSICS), Supplemental Security
               Income Records Maintenance System (SSIRMS), and Earnings Record
               Maintenance System (ERMS).
             o Completed a general computer control review as it relates to MSSICS,
               SSIRMS and ERMS.

    •    Used a programming specialist to determine the adequacy of the programming
         logic used by SSA to extract the data elements from the Work Incentive File.




Performance Indicator Audit: Employment for Disabled Beneficiaries (A-02-04-14068)      B-2
                                                                                           Appendix C

Flowchart - Percent Increase in the Number of
SSI Disabled Beneficiaries Earning at Least
$100 per Month
                              D ata input of
                              claim and/or
                                earnings:
                                M S SIC S



                                                                          D ata input of
                                                                        earnings through
                              P rocessing:                                 the M aster
                                S S IR M S                                E arning File
                                                                             (M E F):
                                                                             ERMS



                             S upplem ental
                            S ecurity R ecord
                                 (S SR )




                                  D ata
                                 Extract:
                                  W ork
                                Incentive
                                   File




                           R eform at the W ork
                           Incentive File




                                   E xcel
                               S preadsheet




                                                                     S S I D isabled
                                                                    R ecipients W ho
                        PM 2 R esults
                                                                     W ork R eport,
                                                                    Table 4 (pg. 17)




Performance Indicator Audit: Employment for Disabled Beneficiaries (A-02-04-14068)                 C-1
Percent increase in the number of SSI disabled beneficiaries earning at least $100
per month

    •    Supplemental Security Income (SSI) beneficiaries provided Social Security
         Administration (SSA) with earnings information. Earnings information was
         inputted into Modernized Supplemental Security Income Claims Systems
         (MSSICS).
    •    Supplemental Security Income Records Maintenance System (SSIRMS)
         processed earnings information to the beneficiaries’ Supplemental Security
         Record (SSR).
    •    Earnings Record Maintenance System interfaced with SSIRMS to provide SSI
         beneficiary earnings information in the form of Master Earnings File alerts/diaries.
    •    SSIRMS processed earnings information to the beneficiaries’ SSR.
    •    The Work Incentive File, a data extract from the SSR, was created.
    •    The Work Incentive File was reformatted to obtain the performance indicator
         data.
    •    The performance indicator data was transferred to an Excel spreadsheet.
    •    The Excel spreadsheet was used to calculate the performance indicator results
         and the SSI Disabled Recipients Who Work Report, Table 4.




Performance Indicator Audit: Employment for Disabled Beneficiaries (A-02-04-14068)        C-2
                                                                                     Appendix D

Agency Comments




Performance Indicator Audit: Employment for Disabled Beneficiaries (A-02-04-14068)
                                           SOCIAL SECURITY


MEMORANDUM                                                                                      33296-24-1156


           August 30, 2004                                                                      Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Acting Inspector General
From:      Larry W. Dye /s/
           Chief of Staff
Subject:   Office of the Inspector General (OIG) Draft Report "Performance Indicator Audit: Employment
           for Disabled Beneficiaries" (A-02-04-14068)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report
           content and recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




           Performance Indicator Audit: Employment for Disabled Beneficiaries (A-02-04-14068)                     D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT “PERFORMANCE INDICATOR AUDIT: EMPLOYMENT FOR
DISABLED BENEFICIARIES" (A-02-04-14068)



We appreciate the opportunity to review and comment on the draft report. We agree that
we can strengthen the security over the measurement process and take steps to better
report performance in this area. Our responses to the specific recommendations are
provided below. We have also included some technical comments for your
consideration.

Recommendation 1

SSA should ensure that personnel do not have the ability, through inappropriate access, to
directly modify, create or delete the datasets used to calculate the results of this indicator.

Response

We agree. We will evaluate the need to limit security access to the datasets to ensure the
integrity of the production data and to conform to the principles of “least privileged
access” or segregation of duties. We are pleased that the report contains no evidence that
the data upon which this performance indicator is calculated had been inappropriately
accessed or compromised.

Recommendation 2

SSA should consider revising the calculation of the performance indicator by averaging
the interim data available for the indicator over a relevant period, rather than reporting it
at a single point in time.

Response

We agree. The proposed change is more apt to reflect our efforts to promote several of
the work incentive programs that assist Supplemental Security Income (SSI) disability
recipients to return to work. We will consider revising the calculation method to
determine fiscal year (FY) 2005 performance.




Performance Indicator Audit: Employment for Disabled Beneficiaries (A-02-04-14068)          D-2
Recommendation 3

SSA should disclose and discuss all of the SSA programs that assist the SSI disabled
beneficiaries to increase their monthly earnings.

Response

We agree. We will include a discussion of the appropriate programs in the FY 2005
PAR. Currently, we do disclose and discuss these programs to a diverse audience (i.e.,
advocacy groups, beneficiaries, general public, vocational rehabilitation, employment
networks) through other channels (e.g., forums, town-hall meetings) and including this
information in the PAR would further demonstrate our commitment to helping SSI
disability recipients return to work.

Recommendation 4

SSA should document the policies and procedures used to prepare and disclose the results
of the performance indicator.

Response

We agree and will provide documentation to our auditors (PwC), as it is related to Key
Performance Indicators (KPIs) in the FY 2004 PAR. We have already started working
with PwC to ensure that PwC has all the required documentation associated with the KPIs
for the FY 2004 PAR.

Recommendation 5

SSA should ensure that the performance indicator results are properly reported in
conformity with the data definition.

Response

We agree. Currently, information on an individual’s assignment of their Ticket is
maintained within the Disability Control File rather than on the Supplemental Security
Record (SSR) or Master Beneficiary Record. We will consider enhancing SSR data
elements to capture this information for inclusion in the Work Incentive File.


[SSA also provided technical comments which have been addressed in this
report, as needed.]




Performance Indicator Audit: Employment for Disabled Beneficiaries (A-02-04-14068)       D-3
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
